Audit of USAID/Mali’s Monitoring and
Reporting of Its Sustainable Economic Growth
Program
7-688-04-003-P
April 2, 2004




                 Dakar, Senegal
April 2, 2004

MEMORANDUM

FOR:            USAID/Mali Director, Pamela White

FROM:           Acting RIG/Dakar, Emmanuel Bruce Attah /s/

SUBJECT:        Audit of USAID/Mali’s Monitoring and Reporting of Its
                Sustainable Economic Growth Program (Report No. 7-688-04-
                003-P)


This memorandum is our final report on the subject audit. In finalizing this
report, we considered management’s comments on our draft report and
included them in Appendix II.

This report contains one recommendation to which you concurred in your
response to the draft report. Based on actions taken in response to the audit
finding, the recommendation is considered closed upon issuance of this report.
No further action is required by the Mission.

I appreciate the cooperation and courtesies extended to the members of our
audit team during this audit.




                                                                                 1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                       5
Contents
           Background                                               6

           Audit Objective                                          6

           Audit Findings                                           7

                   Did USAID/Mali monitor the performance of its
                   Sustainable Economic Growth program to ensure
                   that intended results were achieved?             7

                         Site Visits And SEG Structure
                         Addressed In New Program                   7

                         Data Assessment Not Performed
                         But Addressed In New Program               9

                         Support For Annual Report Data
                         Needs To Be Readily Accessible            11

           Management Comments and Our Evaluation                  13

           Appendix I – Scope and Methodology                      15

           Appendix II – Management Comments                       17




                                                                        3
(This page intentionally left blank)




                                       4
Summary of   The objective of this audit was to determine if USAID/Mali monitored the
Results      performance of its Sustainable Economic Growth (SEG) program to ensure
             that intended results were achieved. (See page 6.)

             USAID/Mali made some efforts to monitor the activities of its SEG program,
             but these efforts did not provide the Mission with the full oversight of the
             program activities. SEG staff conducted some site visits and communicated
             with the various implementing partners. (See page 7.) However, site visits
             were not conducted on a regular or frequent basis, and documentation of visits
             and other partner contacts was limited. (See pages 7 to 8.) This was due, in
             part, to conflicting job priorities and the organizational structure of the
             program within the Mission. (See pages 8 to 9.) However, we believe the
             follow-on Accelerated Economic Growth (AEG) program addresses these
             weaknesses and no recommendation is being made. (See page 9.)

             Although USAID/Mali indicated in its fiscal year (FY) 2004 Annual Report
             that a data quality assessment of the reported results had been conducted in
             2001, they could not provide definitive documentation of the assessment. In
             2001, a consultant was hired to review various performance management
             procedures at the Mission, and reported no findings regarding a data quality
             assessment, implying that such an assessment had been performed. As a
             result of misunderstanding the purpose of the consultant’s work, Mission staff
             considered the consultant’s report as adequate to claim that an assessment had
             been performed, and could not provide any other documentation. (See pages
             9 to 10.) The follow-on AEG program places much emphasis on the need for
             conducting data quality assessments, and is formalizing the requirements in
             the new Performance Management Plan. Therefore, no recommendation
             regarding conducting a data quality assessment is being made. (See page 11.)

             We selected 17 results reported in USAID/Mali’s FY2004 Annual Report to
             determine (1) if the figures were accurate and (2) if the SEG team had
             maintained supporting documentation. (See pages 11 to 12.) We found
             discrepancies between the information contained in the Annual Report and the
             supporting documentation provided for 5 results. According to SEG staff,
             these discrepancies occurred as a result of obtaining updated information. The
             SEG team could not readily identify or provide the source document from
             which they extracted the reported data for 3 of the results. (See page 12.) We
             recommend that USAID/Mali develop procedures to require that Strategic
             Objective teams maintain supporting documentation for data reported in the
             Annual Report. (See page 13.)




                                                                                         5
Background        Notwithstanding its advancement in consolidating democracy, Mali’s progress
                  towards sustainable economic development remains fragile. The largely
                  agricultural-based economy does not yet provide an adequate platform for
                  reducing endemic poverty and improving the quality of life for the majority of
                  the country’s people. The Malian per capita income is only $250 per year
                  (about the same as it was 20 years ago) and 72 percent of the population lives
                  below the Malian poverty level. In Mali, agricultural growth is essential to
                  achieve poverty reduction and overall economic growth.

                  In fiscal year 1998, USAID/Mali began implementing a 5-year Sustainable
                  Economic Growth (SEG) program as part of the Mission’s Strategic Objective
                  2, Increased Value Added of Specific Economic Sectors to National Income.
                  The goal of the SEG program was to increase the value-added or profits of
                  specific economic activities in the cereals, livestock and non-traditional
                  agricultural sub-sectors. This was to be achieved by increasing access to
                  financial services; boosting Mali’s competitiveness in producing, processing
                  and marketing cereals, livestock, and non-traditional products; improving
                  private sector marketing policy; stimulating better use of technology and
                  natural resource management practices; and increasing access to both
                  technical and market information. Since its inception, about $76 million has
                  been obligated for the program. The final program obligations occurred in
                  fiscal year 2002, however, the Strategic Objective was extended to allow for
                  the completion of activities, most of which concluded in fiscal year 2003.

                  The Mission is using the experiences and challenges of the completed SEG
                  program to develop the new economic growth strategic objective and
                  programs in the new 10-year Country Strategic Plan for fiscal years 2003 to
                  2012. The Accelerated Economic Growth (AEG) strategic objective is aimed
                  at increasing productivity and incomes in selected agricultural sub-sectors of
                  Mali. This strategy will build on the successes and lessons learned from the
                  previous SEG program focusing on three inter-related areas: increased
                  agricultural products (which includes expansion of irrigated agriculture to
                  reduce the risks associated with fluctuating rainfall); increased trade of
                  selected commodities; and improvement of agribusiness, microfinance and
                  macro-bank sectors.



Audit Objective   In accordance with its fiscal year 2004 audit plan, the Regional Inspector
                  General/Dakar performed this audit to answer the following audit objective:
                  Did USAID/Mali monitor the performance of its Sustainable Economic
                  Growth (SEG) program to ensure that intended results were achieved?

                  Appendix I contains a complete discussion of the scope and methodology of the
                  audit.
                                                                                              6
Audit Findings   Did USAID/Mali monitor the performance of its Sustainable Economic
                 Growth (SEG) program to ensure that intended results were achieved?

                 USAID/Mali had some processes in place and made some efforts to monitor
                 its Sustainable Economic Growth (SEG) program. However those processes
                 and efforts did not provide for full monitoring and oversight of SEG program
                 activities needed to ensure intended results were achieved. Problems
                 regarding the monitoring of the program include the lack of a systematic and
                 consistent approach to site visits, due in part to conflicting work priorities and
                 the organizational structure of the program within the Mission. Also,
                 USAID/Mali did not perform a data quality assessment as required by the
                 ADS. Several discrepancies were found in the verification of Annual Report
                 data, and SEG program staff did not maintain supporting documentation for
                 results reported in the Annual Report, as required by ADS. In our opinion, the
                 concerns related to the site visits and data quality assessment are addressed
                 under the new Accelerated Economic Growth (AEG) program but corrective
                 action is needed to address the lack of Annual Report supporting
                 documentation.

                 USAID/Mali staff indicated that they did monitor the SEG program activities
                 on an ongoing basis. These efforts included reviewing the partners’ annual
                 workplans as well as the quarterly and annual reports. SEG program staff also
                 communicated regularly with the staff of the implementing partners,
                 participating in meetings and other agricultural sector functions. In addition,
                 the SEG Monitoring and Evaluation specialist provided documentation of his
                 reviews of partners’ workplans and reports, as well as for nine trips he made
                 during the program implementation period to observe and discuss partner
                 activities.

                 While these activities provided the SEG team with information for general
                 program oversight, these efforts, however, did not provide the Mission with
                 full oversight that would be provided with a more consistent approach to
                 monitoring, which would include more frequent visits.


                 Site Visits And SEG Structure
                 Addressed In New Program

                 Although the Monitoring and Evaluation Specialist conducted some site visits,
                 these visits were infrequent and the documentation of these visits was
                 extremely limited, contrary to USAID guidance regarding site visits. The lack
                 of more frequent and consistent site visits occurred due to staff conflicting
                 work priorities and the organizational structure of the program and its staff.
                 However, the new AEG program addresses both of these problems.
                                                                                                 7
As discussed previously, documentation in the Monitoring and Evaluation
specialist’s files showed that he made nine visits to observe partner activities
between June 1999 and October 2001. However, the file did not contain
reports for any trips in 2002 or 2003. According to the Monitoring and
Evaluation specialist, he made additional site visits between 1999 and 2001,
as well as during 2002 and 2003, but did not routinely document his visits.
He told us he would often brief the team orally after the trip or use emails to
communicate the results of the trip, but these emails were not maintained in
the program files. Additionally, although the contract for one of the key
partners in the program required at least quarterly contacts or visits, the
Cognizant Technical Officer (CTO) for the contract acknowledged while
phone contacts or meetings might have occurred, he did not document the
contacts and that in the past two years, he had made only two site visits to
observe the partner’s activities.

USAID’s Automated Directives System (ADS) section E303.5.13 states that
site visits are an important part of effective award management and
recommends that reports of the visits should be maintained in official files.
Similarly, ADS section 303.3.4.c indicates that the responsibilities of the CTO
include monitoring and evaluating the recipient and the recipient’s
performance by maintaining contact through site visits. Moreover, U.S.
Government internal control standards require that important events be
properly documented. We believe that site visits are an important event in the
overall monitoring process and should be documented.

The lack of consistent and documented site visits occurred for several reasons.
First, the Monitoring and Evaluation specialist told us that he had intended to
make at least three visits per year to each of the key partners involved in the
program. However, he also had other duties within the SEG team, and was
the Mission’s environmental officer. As a result of the constraints on his time,
conflicting work priorities, as well as the time that would be needed to visit
some of the sites (which could require a two day drive), he found that it was
difficult to make more than one visit per year to each partner.

Another contributing factor was the organizational structure of the program
within USAID/Mali. The SEG team was responsible for the overall program
management, and the CTO for a contract with one of the key partners was a
SEG team member. However, the Program Office had official oversight for
cooperative agreements with other key partners. In some cases, the
cooperative agreement covered a wide-range of activities supporting several
of the Mission’s strategic objectives. For example, CARE International was
funded to conduct activities not only in support of the SEG program, but also
in support of the Mission’s health and democracy and governance objectives.
According to USAID/Mali officials, the purpose of this arrangement was to
have a single point of contact in the Mission for these partners, rather than
three contacts from different Strategic Objective teams. However, Mission
                                                                              8
officials acknowledged that in hindsight, this arrangement required more
coordination both within and outside of the Mission, and was less effective
than if each Strategic Objective team had oversight of their portion of the
agreement.

Another factor was the design of the SEG program, which was divided into
four results packages – cereal, livestock, alternative commodities and finance.
Members of the SEG team had responsibility for managing one of the results
packages, which might include various types of activities conducted by one or
more of the partners. For example, the cereal results package included
activities focused on increasing cereal production as well as improved
marketing and trade of cereal products, which were conducted by four
partners. Similarly, the livestock and alternative commodities results
packages also included activities focused on increased production and trade.
According to USAID/Mali staff, organizing the SEG team by agricultural
subsector (such as cereal) rather than the activity focus (such as trade) was
less effective and created some gaps in terms of monitoring partner activities.

Without conducting timely and frequent site visits, the Mission could not be
fully assured that the partners were carrying out activities that contributed to
and ensured achievement of the strategic objective. Furthermore, without
formally documenting visits and other key encounters with implementing
partners, important program information may not be available to Mission
management, and would ultimately be lost if Strategic Objective team
members were to leave USAID.

However, in the new AEG program, changes have been made or are in the
process of being made that address these issues. For example, rather than
focus on various agricultural sub-sectors, the AEG program has been
restructured in three sectors – trade, finance and production. A separate
contract has been awarded for each of these three sectors, with separate CTOs,
all of whom are located within the AEG office. At the time of our audit, two
of the three contracts had been awarded, specifically stating that the CTO
must meet at least quarterly with the contractor. Finally, at the Mission level,
the Program office is in the process of developing a new Mission-wide
Monitoring and Evaluation strategy. This strategy will encompass all aspects
of monitoring and evaluation, including site visits and verifying reported
results data.

Therefore, because the SEG program is completed and the new AEG program
appears to be structured to improve monitoring of the program, we are not
making any recommendations on this finding.

Data Assessment Not Performed
But Addressed In New Program


                                                                              9
The Mission did not conduct a data quality assessment on results reported in
the fiscal year (FY) 2004 Annual Report as required by ADS. The Annual
Report includes a reference to such an assessment, but is referring to work
conducted by a consultant, which the Mission staff mistakenly considered a
data quality assessment. As a result, data was submitted to Washington
without a data quality assessment having been conducted. However, under
the new AEG program, the requirement for a data quality assessment is
incorporated into program documents and thus addresses this weakness.

USAID/Mali staff could not provide definitive documentation of a data
quality assessment being performed on the SEG program results reported in
their FY2004 Annual Report although the report indicates such an assessment
was performed in 2001. The Program Office provided a copy of a report
prepared in 2001 by a consultant group, indicating that this was the data
quality assessment they had considered when claiming in the Annual Report
that such an assessment had been performed. However, a review of the report
revealed that the consultants had not conducted a data quality assessment, but
rather been hired to review and report back to USAID/Washington on various
performance monitoring practices at the Mission. One of these practices was
to determine whether the Mission had conducted a data quality assessment.
While the consultants did identify several weaknesses related to
USAID/Mali’s Performance Monitoring Plan, they did not report any findings
related to the lack of a data quality assessment. Thus, the report implies that
such a data quality assessment had been performed, which contributed to the
Mission’s misunderstanding of the results of the report. The SEG program
staff also provided a 1997 report containing a consultant’s observations of the
reliability and validity of the data sources used to report results for the
strategic and intermediate results indicators. It is uncertain as to whether this
report was considered by the consultants in 2001 as adequate to meet the data
quality assessment requirements. In any case, the 1997 assessment is too old
to be considered as a data quality assessment for data reported in fiscal year
2004.

ADS Section 203.3.5.2 states that data reported to USAID/Washington for
Government Performance and Results Act purposes must have had a data
quality assessment at some time within the three years before submission.
The purpose of a data quality assessment is to ensure that the Mission and
Strategic Objective team are aware of the strengths and weaknesses of the
data, and the extent to which the data can be trusted to influence management
decisions. ADS Section 203.3.8.3 further clarifies that the data subject to the
data quality assessment is that which is formally submitted to assess the
Strategic Objective performance or for indicators included in the performance
measures table of the report.

A data quality assessment was not performed as required due to
misunderstanding of the purpose and results of the consultant’s work
performed at the Mission in 2001. As a result, the Mission’s Annual Report
                                                                              10
included performance data for three SEG strategic objective indicators that
had not been subjected to a data quality assessment.

Our review of the draft Performance Monitoring Plan (PMP) for the new AEG
program indicates that considerable emphasis is being placed on ensuring the
quality of the data used to report results, and especially on conducting data
quality assessments. Specifically, the draft PMP requires the Strategic
Objective team to integrate data quality assessments into ongoing activities,
including random checks of partner data with regularly scheduled site visits.
It also includes a data quality checklist to be used by team members when
conducting data quality assessments and requires findings from such
assessments to be documented and filed in the performance management files.
The PMP includes references to ADS requirements to perform such
assessments at least every three years and incorporates a line item for
conducting data quality assessments in the Performance Management Tasks
table.

Therefore, because the SEG program is completed and the new AEG program
incorporates formal procedures in the PMP to assure that data quality
assessments will be performed in accordance with the ADS, we are not
making any recommendations on this finding.


Support For Annual Report Data
Needs To Be Readily Accessible

As part of the audit, we selected 17 of the results reported in the Mission’s
FY2004 Annual Report to Washington to (1) verify the accuracy of the results
reported and (2) determine whether the SEG team had maintained
documentation to support the reported results. While we found no material
errors, significant discrepancies were noted for 5 of the results, attributed to
obtaining updated data.        The SEG team could not easily provide
documentation for 3 of the selected reported results, because they were not
aware of ADS requirements to maintain such support. As a result, the
Mission increased its vulnerability of reporting inaccurate data to Washington.

To verify the accuracy of the reported data, we selected 17 results reported in
the Annual Report. We attempted to trace the figures back to source
documents, which included implementing partners’ reports and government
agricultural statistical reports.

For 15 of the results, we were able to trace the data back to source documents,
but were unable to trace 2 of the results because the SEG team could not
provide the correct documents to support the figures. For 10 of the 15 results
we were able to trace, we found no significant discrepancies between the data
as reported in the Annual Report and the source documents. There were

                                                                             11
minor math errors associated with 2 of the traced results, but these errors were
not material.

However, for the remaining 5 traced results, we found significant discrepancies
between the source document and the results reported in the Annual Report. For
example, the Mission reported that 6,700 metric tons of onions, 355 metric tons
of green beans and 750 tons of sesame were produced in 2002/2003 agricultural
season. However, the agricultural production report from a regional agricultural
organization provided by SEG as the supporting document contained different
data – 5,439 metric tons of onions, 525 metric tons of green beans and 600
metric tons of sesame. Similarly, data reported on the number of the sales of
environmentally-friendly stoves differed between the Annual Report (73,500
sold) and the implementing partner’s annual report (68,594 sold).

Although we were able to ultimately trace 15 of the 17 reported results back to
source documents, SEG staff could not easily access the supporting
documentation for the data reported in the FY2004 Annual Report. For
example, for three of the results the SEG team could not readily provide the
proper source documents and did not maintain a file containing support for
their narrative submission to the Annual Report. For each of these results, the
team provided several different reports. Ultimately the correct source was
found and provided for one of the results related to cereal production,
allowing us to trace the data back to the source document. However, as
mentioned above, the team was unable to provide the correct supporting
documentation for two of the results related to a decline in crop production
and we were unable to trace these results back to source documents.

Both the ADS and annual reporting guidance issued by the Policy and
Program Coordination (PPC) Bureau emphasizes the importance of the
narrative section of the Annual Report. Specifically, the PPC guidance states
that information included in the strategic objective level narrative section of a
Mission’s Annual Report provides input into Agency decision-making on
programs and resources and for inclusion in Bureau- and Agency-level
reporting. ADS Section 203.3.8.3 states that while the data included in the
narrative is not subject to a data quality assessment, operating units are
required by the ADS to maintain supporting documentation.

According to the SEG staff, the discrepancies in the reported data occurred as
a result of receiving updated information from the government and partners
after the issuance of their reports. For example, although the Mission and
partners observed a fiscal year reporting period, many of the agricultural
statistics were not reported until later in the calendar year. In those cases, the
SEG staff contacted the partners to obtain the latest agricultural data to
include in the Annual Report. However, whether obtained via telephone or
email or other methods, this updated information was not always documented
in the program files, and thus could not be traced or verified. SEG staff told

                                                                               12
                 us that they were not aware of any requirements to maintain such specific
                 documentation to support the narrative of the Annual Report.

                 Without maintaining supporting documentation for information included in
                 the narrative section of the Annual Report as required by ADS, USAID/Mali
                 increases its vulnerability of reporting inaccurate or mis-attributed data to
                 USAID/Washington. In this age of audit readiness and accountability, it is
                 prudent to maintain back-up documentation that can be easily accessed.

                 Therefore, to address the lack of documentation, we make the following
                 recommendation:

                        Recommendation No. 1: We recommend that
                        USAID/Mali develop specific procedures to require
                        that each Strategic Objective Team maintain
                        supporting documentation for results and other data
                        included in the Annual Report.



Management       In response to the draft report, USAID/Mali agreed with all of the findings
                 and the recommendation, acknowledging the shortcomings associated with
Comments and
                 monitoring and reporting of results under the Sustainable Economic Growth
Our Evaluation   program.     Based on appropriate action taken by the Mission, the
                 recommendation is considered closed upon issuance of this report. The
                 attachments to management comments are not attached in this audit report.

                 Recommendation No. 1 recommends that the Mission develop specific
                 procedures to require each Strategic Objective Team maintain supporting
                 documentation for results and other data included in the Annual Report. The
                 Mission concurred with this recommendation, recognizing that back-up
                 documentation should be easily accessible. To address this recommendation,
                 USAID/Mali issued a Mission Order on March 19, 2004 with procedures for
                 each Strategic Objective Team to create a formal filing system for
                 documentation to support their Annual Report submissions.




                                                                                           13
(This page intentionally left blank)




                                       14
                                                                                    Appendix I



Scope and     Scope
Methodology
              The Regional Inspector General/Dakar conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was
              to determine if USAID/Mali monitored the performance of its Sustainable
              Economic Growth (SEG) program to ensure that intended results were achieved.
              The audit was conducted at USAID/Mali in Bamako from January 21 to
              February 3, 2004. Meetings were also conducted with officials from two
              implementing partners, Chemonics and CARE International.

              We assessed the management controls of the SEG program that included USAID
              guidance contained in the Automated Directives System, mission reports, and
              other internal policies and procedures at both the USAID- and Mission-level.
              The audit scope focused on examining the procedures used by the Mission to
              monitor SEG program activities primarily in fiscal year 2003, although we also
              assessed the extent to which procedures were in place through the life of the
              program. This included reviewing reports prepared by the Mission and partners,
              reviewing and tracing selected results back to a variety of source documents, and
              visiting partner offices.

              At the Mission’s request, we also reviewed various program documents for the
              new Accelerated Growth Program (AEG). These documents included the
              Mission’s draft Performance Monitoring Plan (PMP), two contracts, the draft
              PMPs for the trade and finance projects, and the first year workplan for the
              finance project.


              Methodology

              While conducting fieldwork, we performed limited tests of compliance with
              USAID procedures regarding results reporting and program monitoring at the
              Mission level. To verify the accuracy of performance results that were
              reported to USAID/Washington in the fiscal year 2004 Annual Report (for
              activities conducted in fiscal year 2003), we traced the reported data back to
              source documents, which included agricultural and economic reports prepared
              by the Malian government as well as implementing partners’ reports. We
              limited our verification of the Annual Report data back to these sources, and
              did not trace the partners’ data back to their supporting documentation. The
              SEG program activities concluded between June and September 2003, and
              many of the partners no longer maintained their program documentation in
              Mali. Our verification included examining source documents and electronic
              and manual records.

                                                                                            15
We also interviewed responsible personnel at the USAID Mission in Mali as
well as at the two implementing partners’ offices concerning program
activities, monitoring efforts and data accuracy issues.

In assessing the accuracy of the data, we used a threshold of one percent for
transcription accuracy and five percent for computation accuracy.




                                                                          16
                                                                                            Appendix II


Management
Comments


                                         USAID/Bamako
                                 Office of Financial Management
                                MEMORANDUM


To:            Lee Jewell III,RIG/Dakar

From:          Pamela White, Director /s/

Through:       Kathy Body, Controller /s/

Date:          03/24/04

Subject:       RIG/Dakar Audit of USAID/Mali’s Monitoring and Reporting of its Sustainable
               Economic Growth Program (Report No. 7-688-04-00X-P)


Recommendation No.1 reads as follows: "We recommend that USAID/Mali develop specific
procedures to require that each Strategic Objective Team maintain supporting documentation for
results and other data included in the Annual Report."

USAID/Mali wishes to thank RIG/Dakar for its timely audit of the monitoring and reporting of the
Sustainable Economic Growth (SEG) program. As correctly noted in the draft audit report,
USAID/Mali has taken important steps to improve its monitoring and evaluation (M&E) system to
coincide with the beginning of its new country strategy. These steps include: (i) organizing the
follow-on Accelerated Economic Growth (AEG) program into these distinct elements each overseen
by a CTO located within the AEG team who is responsible for ensuring that adequate contact is
maintained with implementing partners, including through site visits; (ii) establishing a framework for
the introduction of rigorous M&E practices to be followed by all Strategic Objective teams within the
Mission; and (iii) developing iteratively an AEG Performance Monitoring Plan (PMP), in close
collaboration with key implementing and development partners, consistent with the Agency's
Automated Directive System (ADS) guidance.

The Mission acknowledges that there were shortcomings associated with the monitoring and
reporting of results under the previous SEG program. It is extremely helpful to have the measures
taken to correct these problems validated by the experienced staff of the RIG. The Mission's intent is
                                                                                                    17
to ensure that the measures instituted by the AEG program are adhered to and that other Strategic
Objective teams do the same.

With respect to the only recommendation of this audit, the Mission is pleased to inform the RIG that
it issued a Mission Order effective March 19, 2004 (separate attachment) that directly responds to
this recommendation.        Therefore, USAID/Mali requests that RIG/Dakar close this
recommendation.




                                                                                                 18
